                                              OFFICE OF JOB CORPS


Office of Inspector General—Office of Audit




                                                  JOB CORPS REGIONAL DIRECTOR’S
                                                 AUTHORITY AS CONTRACTING OFFICER
                                                         RAISES CONCERNS




                                                                    Date Issued: March 30, 2007
                                                                    Report Number: 04-07-002-01-370
U.S. Department of Labor                                  March 2007
Office of Inspector General
Office of Audit                                           Job Corps Director’s Authority as Contracting
                                                          Officer Raises Concerns

BRIEFLY…                                                  WHAT OIG FOUND
Highlights of Report Number: 04-07-002-01-370, to the We did not substantiate the allegation that the former
National Director of Job Corps. March 30, 2007.       AROJC RD gave preferential treatment to contractors
                                                      during the quality assessment scoring process.
WHY READ THE REPORT                                   However, by having one person serve as the
                                                      Contracting Officer, in addition to performing the
In response to an anonymous hotline complaint, we     contract monitoring and assessment responsibilities of
conducted an audit to determine whether the           the RD, Job Corps did not provide for an adequate
complaint’s allegations of improper activities by the segregation of duties.
former Regional Director (RD) of the Atlanta Regional
Office of Job Corps (AROJC) could be substantiated.   The former AROJC RD abused his contracting
Our specific audit objectives were as follows:        authority by violating procurement regulations to
                                                          acquire personal services. The former AROJC RD
    •   Did the former AROJC RD give preferential         recruited an individual to work under his direct
        treatment to contractors during the               supervision and then arranged for two Job Corps’
        assessment scoring process?                       contractors to employ the individual. Neither
                                                          contractor supervised the services the individual
    •   Did the former AROJC RD abuse his                 performed for Job Corps. The former AROJC RD’s
        contracting authority by violating procurement    placement of the individual under two service contracts
        regulations to acquire contractor services?       while under his direct supervision created in substance
                                                          a personal services contract.
    •   Did the former AROJC RD misuse Federal
        funds to purchase boxing gloves and George        The former AROJC RD did not misuse Federal funds
        Foreman books?                                    to purchase boxing gloves and books. The boxing
                                                          gloves and books, acquired to serve as motivational
WHY OIG DID THE AUDIT                                     tools for Job Corps participants and as awards for Job
OIG performed the audit to determine if the allegations   Corps program accomplishments, were reasonable
discussed in the complaint against the former AROJC       and authorized program expenses.
RD could be substantiated.
                                                          WHAT OIG RECOMMENDED
READ THE FULL REPORT                                      We recommended the National Director of Job Corps:
To view the report, including the scope, methodology,
and full agency response, go to:                          •   Separate the Contracting Officer and Regional
                                                              Director responsibilities to two individuals in each
http://www.oig.dol.gov/publicreports/oa/2007/04-07-           region, in order to strengthen controls and provide
002-01-370.pdf                                                for greater independence in the selection and
                                                              award of future Job Corps contracts.
                                                          •   Update the Program Assessment Guide to
                                                              incorporate the process for conducting a pre-brief
                                                              out and substantiating any changes agreed to
                                                              during the pre-brief out.
                                                          •   Ensure adherence with the Federal Acquisition
                                                              Regulation regarding personal service contracts
                                                              and conflicts of interest.

                                                          In response to the draft report, the National Director of
                                                          Job Corps agreed with our findings and
                                                          recommendations.
                                                                         Job Corps Regional Director’s Authority as
                                                                              Contracting Officer Raises Concerns



Table of Contents
                                                                                                                         PAGE


EXECUTIVE SUMMARY ................................................................................................ 3


ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 5
   We did not substantiate the allegation that the former Regional Director (RD)
   for the Atlanta Regional Office of Job Corps (AROJC) gave preferential
   treatment to contractors during the quality assessment scoring process .. ....... 6

   The former AROJC RD abused his contracting authority by violating
   procurement regulations to acquire personal services ......................................... 9

   The former AROJC RD did not misuse Federal funds in acquiring boxing
   gloves and books .................................................................................................... 12

EXHIBIT ........................................................................................................................ 13
   A. Quality Assessments on Which the Contractor's Employee Participated ..... 15

APPENDICES ............................................................................................................... 17
   A. Background ......................................................................................................... 19

   B. Objectives, Scope, Methodology, and Criteria ................................................. 21

   C. Acronyms and Abbreviations ............................................................................ 23

   D. Agency Response ............................................................................................... 25




U.S. Department of Labor – Office of Inspector General                                                                       1
Report Number: 04-07-002-01-370
Job Corps Regional Director’s Authority as
Contracting Officer Raises Concerns




                      PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                            U.S. Department of Labor -–Office of Inspector General
                                                                  Report Number: 04-07-002-01-370
                                                         Job Corps Regional Director’s Authority as
                                                              Contracting Officer Raises Concerns



Executive Summary
In response to an anonymous hotline complaint, the Office of Inspector General
conducted an audit to determine whether the allegations of improper actions by the
former Regional Director (RD) of the Atlanta Regional Office of Job Corps (AROJC)
could be substantiated. Our specific objectives were to determine the following:

   1. Did the former AROJC RD give preferential treatment to contractors during the
      quality assessment scoring process?

   2. Did the former AROJC RD abuse his contracting authority by violating
      procurement regulations to acquire contractor services?

   3. Did the former AROJC RD misuse Federal funds to purchase boxing gloves and
      George Foreman books?

Results

1. We did not substantiate the allegation that the former AROJC RD gave
   preferential treatment to contractors during the quality assessment scoring
   process. We found no evidence to support the allegation that the former AROJC
   RD gave preferential treatment to contractors during the quality assessment scoring
   process. However, by having one person serve as the Contracting Officer, in
   addition to performing the contract monitoring and assessment responsibilities of the
   RD, Job Corps did not provide for an adequate segregation of duties. These dual
   responsibilities impair the RD’s independence as a Contracting Officer and could
   result in bias and preferential treatment in the award of contracts. In addition, the
   absence of adequate documentation of the quality assessment scoring process
   further contributes to a perception of bias and preferential treatment in contract
   awards, and hampers Job Corps’ ability to defend itself against contractor protests.

2. The former AROJC abused his contracting authority by violating procurement
   regulations to acquire personal services. The former AROJC RD recruited an
   individual to work under his direct supervision and then arranged for two Job Corps’
   contractors to employ the individual. Officials of the two contractors stated they did
   not supervise the services the individual performed for Job Corps. The former
   AROJC RD’s placement of the individual under two service contracts while under his
   direct supervision created in substance a personal services contract.

   The former AROJC RD also directed the individual to participate on contractor
   quality assessment reviews. Quality assessment services were not included in the
   statements of work for either of the contractors for which the individual worked. The
   individual assigned to provide the quality assessment services was the spouse of an
   official of a competing JC contractor. By assigning this individual to participate on

U.S. Department of Labor – Office of Inspector General                                         3
Report Number: 04-07-002-01-370
Job Corps Regional Director’s Authority as
Contracting Officer Raises Concerns

    the quality assessments, the former AROJC RD created a conflict of interest. This
    conflict of interest resulted in the appearance of unfairness and bias in conducting
    the quality assessments and may have put competing contractors at a disadvantage
    in the competitive contract process.

3. The former AROJC RD did not misuse Federal funds to purchase boxing
   gloves and books. The former AROJC RD submitted the proper documentation
   needed to purchase boxing gloves and boxing related books with Federal funds.
   The books, acquired to serve as motivational tools for Job Corps participants and as
   awards for Job Corps program accomplishments, were a reasonable and authorized
   program expense.

Recommendations
We recommend the National Director of Job Corps:

    1. Separate the Contracting Officer and Regional Director responsibilities to two
       individuals, in order to strengthen controls and provide for greater independence
       in the selection and award of future Job Corps contracts.
    2. Update the Program Assessment Guide (PAG) to incorporate the process for
       conducting a pre-brief out, and substantiating any changes agreed to during the
       pre-brief out.
    3. Ensure adherence with the Federal Acquisition Regulation regarding personal
       service contracts and conflicts of interest.

Agency Response
In response to the draft report, the National Director of Job Corps agreed with the
findings and recommendations and stated that Job Corps has addressed the need to
separate the duties of the Regional Director and Contracting Officer by placing those
functions in two different reporting structures. The National Director further stated that
this separation of duties addresses the recommendation to ensure adherence to the
Federal Acquisition Regulation. The National Director also agreed to update the PAG.

Job Corps’ response to the draft report is included in its entirety as Appendix D.

OIG Conclusion
Based on Job Corps’ statement that it has separated the duties of the Regional Director
and Contracting Officer, recommendation 1 is resolved. This recommendation can be
closed upon receipt of documentation regarding the separation of duties and new
reporting structures. Recommendation 2 is unresolved, pending receipt of a planned
date for issuing the updated PAG. Recommendation 3 is also unresolved. While Job
Corps’ action to separate the duties of the Regional Director and Contracting Officer will
improve the procurement control environment, we believe that the National Director of
Job Corps also needs to issue additional guidance to Job Corps’ staff regarding the
importance of avoiding even the appearance of a conflict of interest in their relationships
with contractors and contractors’ staff.

4                                       U.S. Department of Labor -–Office of Inspector General
                                                              Report Number: 04-07-002-01-370
                                                         Job Corps Regional Director’s Authority as
                                                              Contracting Officer Raises Concerns


                                     U.S. Department of Labor
                                       Office of Inspector General
                                        Washington, DC 20210


                           Assistant Inspector General’s Report


Dr. Esther R. Johnson
National Director of Job Corps
U. S. Department of Labor
200 Constitution Avenue, N.W.
Washington, DC 20210

In response to an anonymous hotline complaint, we conducted an audit to determine
whether the complaint’s allegations of improper activities by the former Regional
Director (RD) of the Atlanta Regional Office of Job Corps (AROJC) could be
substantiated. Our specific audit objectives were as follows:

   1. Did the former AROJC RD give preferential treatment to contractors during the
      assessment scoring process?

   2. Did the former AROJC RD abuse his contracting authority by violating
      procurement regulations to acquire contractor services?

   3. Did the former AROJC RD misuse Federal funds to purchase boxing gloves and
      George Foreman books?

We conducted the audit in accordance with Government Auditing Standards for
performance audits. Our audit objectives, scope, methodology, and criteria are detailed
in Appendix B.




U.S. Department of Labor – Office of Inspector General                                         5
Report Number: 04-07-002-01-370
Job Corps Regional Director’s Authority as
Contracting Officer Raises Concerns

Objective 1 – Did the former Atlanta Regional Office of Job Corps (AROJC)
Regional Director (RD) give preferential treatment to contractors during the
assessment scoring process?


Results and Finding

We did not substantiate the allegation that the former AROJC RD gave preferential
treatment to contractors during the quality assessment scoring process. However, a
lack of adequate segregation of duties existed because the former RD was involved in
monitoring and assessing the services provided by Job Corps’ contractors, while also
serving as a warranted Contracting Officer (CO). By having one individual serve in both
roles, Job Corps impaired the independence of the CO. This lack of independence
could result in bias and preferential treatment in the award of contracts. In addition, the
absence of adequate documentation of the quality assessment scoring process further
contributes to a perception of bias and preferential treatment in contract awards, and
hampers Job Corps’ ability to defend itself against contractor protests.

Job Corps’ RDs are warranted COs responsible for the competing and awarding of
contracts to operate Job Corps centers and contracts to provide outreach /
admissions (OA) and career transition services (CTS).

Job Corps’ RDs are also responsible for monitoring and assessing the performance
of contractors within their region. Quality assessments are one of the tools used by
Job Corps to measure contractor performance. Job Corps’ Regional Offices conduct
quality assessments of each contractor every 12 to 24 months. The quality
assessment results in a numeric quality rating for the center operator, OA contractor
or CTS contractor being evaluated. This quality rating is reported to the Job Corps
National Office and provides a qualitative performance measure for center/OA/CTS
contractors. The quality rating is used during the contract award process as part of
the past effectiveness rating.

During a quality assessment, a team from the Job Corps Regional Office conducts
an on-site evaluation of program activities using Job Corps’ PAG. The team
evaluates and scores program activities in the following functional areas:

    •   outreach and admissions
    •   career preparation
    •   career development
    •   career transition
    •   management
    •   administrative support

Assessment team members are assigned a specific functional area to evaluate and
score. At the conclusion of the on-site work, the assessment team conducts a brief
out with the contractor to present the results of the quality assessment. Prior to this

6                                       U.S. Department of Labor -–Office of Inspector General
                                                              Report Number: 04-07-002-01-370
                                                         Job Corps Regional Director’s Authority as
                                                              Contracting Officer Raises Concerns

meeting, the assessment team normally conducts a “pre-brief out” meeting among
themselves to discuss and finalize their results and the quality rating assigned to the
various functional areas.

The former AROJC RD or the Deputy RD participated in pre-brief outs among team
members and brief outs with contractors. In pre-brief outs, assessment team
members presented the results of their area of review. The results included a
summary of contractor performance, concerns, and the assigned score for each
section of the completed assessment. However, no written record documented the
discussions at the pre-brief out or the process for deriving final scores assigned to
the contractors.

The former AROJC RD stated that he was responsible for contractor assessment
scores and participated as a team member during the quality assessments. The
former AROJC RD stated that he did not always agree with the assessment scores
of other team members and in some instances team members may have felt
compelled to change their scores.

Job Corps’ PAG does not prohibit the RD from participating in the assessment process,
nor does the PAG include procedures for conducting pre-brief outs or the assignment of
the scores by team members. However, the PAG states: “Careful coordination between
individuals assigned to each function and information sharing among all team members,
regardless of assignment, is critical for a thorough assessment.”

The “Standards for Internal Controls in the Federal Government” states:

       Key duties and responsibilities need to be divided or segregated
       among different people to reduce the risk of error or fraud. This
       should include separating the responsibilities for authorizing
       transactions, processing and recording them, reviewing the
       transactions, and handling any related assets. No one individual
       should control all key aspects of a transaction or event.

By having one person serve as the Contracting Officer, in addition to performing the
contract monitoring and assessment responsibilities of the Regional Director, Job Corps
did not provide for an adequate segregation of duties. The RD’s dual responsibilities
impaired his independence in the awarding of contracts. Federal Acquisition Regulation
Part 3.000, Subpart 3.101-1, states: “Government business shall be conducted in a
manner above reproach and, except as authorized by statute or regulation, with
complete impartiality and with preferential treatment for none.”

In summary, we did not find evidence of preferential treatment to contractors during the
quality assessment scoring process. However, the RD’s influence on the contractor
quality assessment scores given his role as the CO, impairs the CO’s independence.
This lack of independence could result in bias and preferential treatment in the award of
contracts. The absence of documentation of the quality assessment scoring process


U.S. Department of Labor – Office of Inspector General                                         7
Report Number: 04-07-002-01-370
Job Corps Regional Director’s Authority as
Contracting Officer Raises Concerns

further increases Job Corps’ vulnerability to claims of bias and preferential treatment
and hampers Job Corps’ ability to effectively defend against contractor protests.

Recommendation

We recommend the National Director of Job Corps:

    1. Separate the Contracting Officer and Regional Director responsibilities to two
       individuals in each region, in order to strengthen controls and provide for greater
       independence in the selection and award of future Job Corps contracts.

    2. Update the Program Assessment Guide to incorporate the process for
       conducting a pre-brief out and substantiating any changes agreed to during the
       pre-brief out.


Agency Response

In response to the draft report, the National Director of Job Corps agreed with the
findings and recommendations. The National Director stated that Job Corps has
addressed the need to separate the duties of the Regional Director and Contracting
Officer by placing those functions in two different reporting structures. The National
Director also agreed to update the Program Assessment Guide.

Job Corps’ response to the draft report is included in its entirety as Appendix D.

OIG Conclusion

Based on Job Corps’ statement that it has taken action to separate the duties of the
Regional Director and Contracting Officer, recommendation 1 is resolved. This
recommendation can be closed upon receipt of documentation regarding the separation
of duties and new reporting structures. Recommendation 2 is unresolved, pending
receipt of a planned date for issuing the updated Program Assessment Guide.




8                                       U.S. Department of Labor -–Office of Inspector General
                                                              Report Number: 04-07-002-01-370
                                                         Job Corps Regional Director’s Authority as
                                                              Contracting Officer Raises Concerns

Objective 2 – Did the former AROJC RD abuse his contracting authority by
violating procurement regulations to acquire contractor services?
Results and Finding

The former AROJC RD abused his contracting authority by violating procurement
regulations to acquire personal services. The RD arranged for two Job Corps
contractors – American Business Corporation (ABC) and Education Training Resources
(ETR) -- to employ an individual he had recruited to work under his direction. The RD
directed this individual to provide contractor quality assessment services, although such
services were not included in the Statements of Work in Job Corps’ contracts with either
ABC or ETR. The former RD’s decision to use this individual to provide contractor
quality assessment services also created a conflict of interest because the individual
was the spouse of an employee of Management Training Corporation (MTC), a
competing Job Corps contractor.

The former AROJC RD stated additional funding was available in 2000 to expand the
existing area of Career Transition Services (CTS) to a more expansive service called
Career Development Services System (CDSS). The former RD stated that he
interviewed two individuals about providing these expanded services. Upon selecting
an individual, the former RD notified ABC of his intention to incorporate a new position
into ABC’s contract to provide CTS in Georgia.

An ABC official stated that ABC employed the individual under its Job Corps contract to
provide CTS in Georgia, but the individual reported directly to the former AROJC RD.
The official stated ABC had no direct oversight responsibility for the individual and
handled only the administrative responsibilities. While reporting directly to the former
AROJC RD, the individual participated on five JCC contractor quality assessments
during the period of December 2002 until June 2003. Quality assessment services
were not included in the Statement of Work or as deliverables under Job Corps’ contract
with ABC.

On August 8, 2003, ABC notified Job Corps of its decision to terminate the individual.
ABC stated that it was under-staffed in its CTS contract, and in good conscience could
not use existing operating funds to continue this position. ABC further explained that it
had concerns about the perception of impropriety and potential protest when it submits
proposals to operate JCCs in the Atlanta Region. ABC terminated the individual’s
employment on October 9, 2003.

On October 10, 2003, the former AROJC RD moved the individual to Job Corps’
contract with ETR for the operation of the Turner Job Corps Center. While employed by
ETR during the period October 2003 until April 2004, the individual participated on eight
quality assessments. The President of ETR stated that he was not aware of the
individual’s participation on quality assessment teams during her employment with ETR.
As with the ABC contract, quality assessment services were not included in ETR’s
contract with Job Corps.


U.S. Department of Labor – Office of Inspector General                                         9
Report Number: 04-07-002-01-370
Job Corps Regional Director’s Authority as
Contracting Officer Raises Concerns

In summary, the former AROJC RD placed the individual under two service contracts 1
while under his direct supervision, creating in substance a personal services contract.

FAR 37.104 (a) states:

          A personal services contract is characterized by the employer-employee
          relationship it creates between the Government and the contractor’s
          personnel. . . . Obtaining personal services by contract, rather than by
          direct hire, circumvents those laws unless Congress has specifically
          authorized acquisition of the services by contract.

In addition, the former RD created a conflict of interest in allowing the individual to
participate on quality assessments because the individual was the spouse of an MTC
official, and MTC was a competing Job Corps contractor. Overall, the AROJC
performed 24 assessments from December 2002 until April 2004. During that period,
the individual participated in 13 of 24 assessments (54 percent). While a potential
conflict of interest existed for all the quality assessments on which the individual
participated, we noted one quality assessment where MTC was directly involved as a
competing contractor. Exhibit A identifies the quality assessments on which the
individual participated.

FAR Part 3.000, Subpart 3.101-1, states:

          Government business shall be conducted in a manner above reproach
          and, except as authorized by statute or regulation, with complete
          impartiality and with preferential treatment for none. . . . . The general
          rule is to avoid strictly any conflict of interest or even the appearance of a
          conflict of interest in Government-contractor relationships.

The former AROJC RD stated that he knew the individual was married to an MTC
corporate official but knew of no requirement for evaluating personal or family
relationships across contracts. In addition, the former AROJC RD contended the
individual was restricted from giving quality assessment scores, but agreed that the Job
Corps RD or Deputy RD and project managers used the individual’s quality assessment
narratives to assign scores. These quality assessment scores are one of the elements
used to determine past effectiveness. Past effectiveness is considered by Job Corps
during the contract award process.

In conclusion, the actions taken by the former AROJC RD raise concerns surrounding
the propriety of Job Corps contractor quality assessment and contract award processes.
The former AROJC RD abused his contracting authority by violating procurement
regulations to acquire personal services. Additionally, although MTC is a Job Corps
contractor and the former AROJC RD was aware that the contract employee was
married to an MTC official, the former AROJC RD nonetheless allowed this individual to

1
 “Service contract” means a personal or nonpersonal contract that directly engages the time and effort of a contractor whose
primary purpose is to perform an identifiable task rather than to furnish an end item of supply.


10                                                       U.S. Department of Labor -–Office of Inspector General
                                                                              Report Number: 04-07-002-01-370
                                                         Job Corps Regional Director’s Authority as
                                                              Contracting Officer Raises Concerns

participate on contractor quality assessments, including assessments of MTC
operations. These actions by the former AROJC RD created a conflict of interest that
may have put firms bidding for Job Corps’ contracts at a competitive disadvantage.

Recommendation

   3. We recommend the National Director of Job Corps ensure adherence with the
      Federal Acquisition Regulation regarding personal service contracts and conflicts
      of interest.

Agency Response
In response to the draft report, the National Director of Job Corps stated that Job Corps
had separated the duties of the Regional Director and Contracting Officer by placing
those functions in two different reporting structures. The National Director further stated
that this separation of duties addresses the recommendation to ensure adherence to
the Federal Acquisition Regulation.

Job Corps’ response to the draft report is included in its entirety as Appendix D.

OIG Conclusion

Recommendation 3 is unresolved. While Job Corps’ action to separate the duties of the
Regional Director and Contracting Officer will improve the procurement control
environment, we believe that the National Director of Job Corps also needs to issue
additional guidance to Job Corps’ staff regarding the importance of avoiding even the
appearance of a conflict of interest in their relationships with contractors and
contractors’ staff.




U.S. Department of Labor – Office of Inspector General                                         11
Report Number: 04-07-002-01-370
Job Corps Regional Director’s Authority as
Contracting Officer Raises Concerns

Objective 3 – Did the former AROJC RD misuse Federal funds to purchase boxing
gloves and George Foreman books?
Results

The former AROJC RD did not misuse Federal funds in acquiring boxing gloves and
books. The former RD spent Federal funds to purchase boxing gloves and boxing
related books, and presented the boxing gloves to contractors as performance awards.
However, the acquisition of boxing gloves and books was an allowable expenditure.

The former AROJC RD submitted the proper documentation needed to purchase the
boxing gloves and the books authored by George Foreman. The former AROJC RD
stated the boxing gloves were used for the “Regional Director’s Impact Awards” and the
books were purchased to present to students during a leadership conference.

The former AROJC RD kept the boxing gloves in his office. He also kept the books,
authored by George Foreman entitled “George Foreman's Guide to Life, How to Get up
off the Canvas When Life Knocks You Down," in the storage room. The former AROJC
RD stated that when George Foreman was 16, he joined Job Corps and graduated.
The former AROJC RD stated that Foreman’s book is essentially a book of advice and
he decided the book would be a good inspirational piece for the students.

The former AROJC RD stated, however, due to the late ordering of the books, they did
not arrive in time for distribution during the student leadership conference. He also
stated he provided a copy of the book to approximately 10 student attendees who
expressed an interest in receiving a copy of the book.

We concluded that the former AROJC RD did not misuse Federal funds in acquiring
boxing gloves and books. The purchases were a reasonable and authorized program
expense.




Elliot P. Lewis
September 22, 2006




12                                           U.S. Department of Labor -–Office of Inspector General
                                                                  Report Number: 04-07-002-01-370
                                                         Job Corps Regional Director’s Authority as
                                                              Contracting Officer Raises Concerns




Exhibit




U.S. Department of Labor – Office of Inspector General                                         13
Report Number: 04-07-002-01-370
Job Corps Regional Director’s Authority as
Contracting Officer Raises Concerns




                      PAGE HAS BEEN INTENTIONALLY LEFT BLANK




14                                           U.S. Department of Labor -–Office of Inspector General
                                                                  Report Number: 04-07-002-01-370
                                                         Job Corps Regional Director’s Authority as
                                                              Contracting Officer Raises Concerns

                                                                                       EXHIBIT A

                        QUALITY ASSESSMENTS ON WHICH THE
                       CONTRACTORS’ EMPLOYEE PARTICIPATED


                                       Quality Assessments
      Date of Assessment Job Corps Center & Operator                Contractor Employee’s
                                                                    Area of Responsibility
 1    April 5 - 8, 2004        Batesville/MINACT, Inc.              OA, & CTS
 2    March 22 - 26, 2004      Mississippi/Del-Jen, Inc.            OA
 3    February 23-27, 2004     Bamberg/DESI                         OA, CPP, & CTS
 4    January 26 – 30, 2004    Gulfport/DESI                        OA, & CTS
 5    January 12-16, 2004      Miami/ResCare, Inc.                  OA, WBL, & CTS
 6    December 8 – 12, 2003    Gadsden/MINACT, Inc.                 OA
 7    November 17–21, 2003     Memphis/MINACT, Inc.                 OA, & CTP
 8    October 27-31, 2003      Atlanta/MTC                          CTS, & Property Management
 9    June 16-20, 2003         Homestead/Vinnell Corp.              OA, WBL, & CTS
 10   April 28 – May 2, 2003   Schenck/U.S. Forest Service          OA, WBL, & CTS
 11   March 17-21, 2003        Brunswick/Vindell Corp.              OA, & CPP
 12   February 24-28, 2003     Jacksonville/DESI                    CTP
 13   December 2-6, 2002       Turner/CSDC, mentor and ETR,         CTP
                               protégé

Legend:
DESI = Dynamic Educational Systems, Inc.
CSDC = Career Systems Development Corporation
ETR = Education and Training Resources
MTC = Management and Training Corporation

OA = Outreach and Admissions
CTS = Career Transition Services
CPP = Career Preparation Period
CTP = Career Transition Period
WBL = Work-Based Learning Standards




U.S. Department of Labor – Office of Inspector General                                         15
Report Number: 04-07-002-01-370
Job Corps Regional Director’s Authority as
Contracting Officer Raises Concerns




                      PAGE HAS BEEN INTENTIONALLY LEFT BLANK




16                                           U.S. Department of Labor -–Office of Inspector General
                                                                  Report Number: 04-07-002-01-370
                                                         Job Corps Regional Director’s Authority as
                                                              Contracting Officer Raises Concerns




Appendices




U.S. Department of Labor – Office of Inspector General                                         17
Report Number: 04-07-002-01-370
Job Corps Regional Director’s Authority as
Contracting Officer Raises Concerns




                      PAGE HAS BEEN INTENTIONALLY LEFT BLANK




18                                           U.S. Department of Labor -–Office of Inspector General
                                                                  Report Number: 04-07-002-01-370
                                                         Job Corps Regional Director’s Authority as
                                                              Contracting Officer Raises Concerns

                                                                                   APPENDIX A
BACKGROUND
The audit resulted from an anonymous complaint sent by an employee of Job Corps
and received by the Office of Inspector General. The Atlanta Regional Audit Office
evaluated the allegations and results are discussed in this report. There were
allegations of some serious breaches of integrity occurring in the Atlanta Regional
Office of Job Corps. The allegation further named the former Regional Director as the
individual responsible for the impropriety.


Title I-C of the Workforce Investment Act of 1998 authorizes the Job Corps program.
Education, training and support services are provided to students at Job Corps center
campuses located throughout the United States and Puerto Rico. The U.S. Department
of Labor operates the Job Corps Centers (JCC) by private companies through
competitive contracting processes, and by other Federal agencies through inter-agency
agreements.
The purpose of Job Corps is to assist young people who need and can benefit from a
comprehensive program, operated primarily in the residential setting of a Job Corps
Center, to become more responsible, employable, and productive citizens.
As a national, primarily residential training program, Job Corps' mission is to attract
eligible young adults, teach them the skills they need to become employable and
independent, and place them in meaningful jobs or further education.
The quality rating system provides a vehicle for assessing the quality of services
provided to students and employers by Job Corps contractors. The Program
Assessment Guide states that project managers perform regular, ongoing evaluation
of center plans and performance. Project managers within the regional offices
perform quality assessments every 12 to 24 months that result in a score for JCC
contractors. The regional offices report the assessment scores to the National
Office of Job Corps and provide a qualitative performance measure for center
operations. The score is included as part of the quality measurement system and is
used for contracting purposes as part of the past effectiveness rating. The past
effectiveness score is one of several factors taken into consideration when the
Contract Officer (CO) needs to determine that the prospective contractor has
demonstrated a satisfactory record of past performance.

The Program Assessment Guide also states that a brief out provides the
operator/contractor and the center with verbal feedback on results of regional office
quality assessment. The brief out occurs prior to the departure of the team
personally or by conference call. The AROJC staff stated the brief outs are
generally presented on the final assessment results on Friday morning with JCC
staff, contractor’s corporate staff, the student government association members, and
the RD or DRD.




U.S. Department of Labor – Office of Inspector General                                         19
Report Number: 04-07-002-01-370
Job Corps Regional Director’s Authority as
Contracting Officer Raises Concerns




                      PAGE HAS BEEN INTENTIONALLY LEFT BLANK




20                                           U.S. Department of Labor -–Office of Inspector General
                                                                  Report Number: 04-07-002-01-370
                                                         Job Corps Regional Director’s Authority as
                                                              Contracting Officer Raises Concerns

                                                                                   APPENDIX B
OBJECTIVES, SCOPE, METHODOLOGY, AND CRITERIA

Objectives

Our overall objective was to determine whether we could substantiate the allegations
the former Regional Director (RD) of the Atlanta Regional Office of Job Corps (AROJC)
violated any laws, regulations or Job Corps’ policies. Specifically, did the former RD:

   1. give preferential treatment to contractors during the assessment scoring
      process?

   2. abuse his contracting authority by violating procurement regulations to acquire
      contractor services?

   3. misuse Federal funds to purchase boxing gloves and George Foreman books?

Scope
Our audit focused on allegations concerning the former AROJC RD that occurred during
the period January 1, 2000, through December 31, 2004.

Methodology
To substantiate the allegations, we first gained an understanding of how AROJC
performs the quality assessments. We conducted interviews with project managers, the
contract specialist, budget technician, and the procurement technician to obtain
information to assist us in achieving our objective. We also interviewed the former RD
and the Deputy RD who were responsible for the AROJC activities. The AROJC is
located at 61 Forsyth Street, SW, Room 6T95, Atlanta, Georgia.

To further our understanding of the quality assessment process, we interviewed five of
the ten project managers. To select the managers interviewed, we first selected a
project manager we believed could supply information pertinent and specific to the
allegations. To select the other four project managers, we made two strata: one with
GS-12 and the other with GS-13 project managers. We then randomly selected two
project managers from each group (two GS-13 and two GS-12 project managers). We
developed a matrix in order to compare the interview responses.

We obtained and reviewed procurement orders, Orders for Supplies and Services (OF
347), Internal Request Document, and sales order forms related to the purchase of the
boxing gloves and related books. We observed these items at the AROJC office. We
also obtained Job Corps’ contracts with American Business Corporation and Education
and Training Resources and W-2s, Personnel Action forms, trip reports and Position
Descriptions from the contractors who employed the wife of an MTC official. We
reviewed various assessment reports from the AROJC, and conducted interviews with
the contractor and her husband in order to confirm their relationship.

U.S. Department of Labor – Office of Inspector General                                         21
Report Number: 04-07-002-01-370
Job Corps Regional Director’s Authority as
Contracting Officer Raises Concerns


The audit was performed in Atlanta, Georgia, between June 14, 2005, and September
22, 2006. The understanding we obtained of internal controls focused only on those
controls related to our audit objective of determining whether the allegations could be
substantiated, and was not intended to form an opinion on the adequacy of internal
controls overall, and we do not render such an opinion. We performed our audit in
accordance with Government Auditing Standards for performance audits issued by the
Comptroller General of the United States. An audit made in accordance with these
standards provides reasonable assurance that its objectives were achieved, but does
not guarantee the discovery of illegal acts, abuse or all internal control weaknesses.
Providing an opinion on compliance with all laws, regulations, and other compliance
requirements was not an objective of our audit and accordingly, we do not express such
an opinion. We believe our audit provides a reasonable basis for our assessment and
conclusions.

Criteria
The Office of Job Corps, a component of the Office of the Secretary of the U.S.
Department of Labor, administers the Job Corps program. Authority for Job Corps is
established under Title I, Subtitle C of the Workforce Investment Act of 1998, formerly
Title IV-B of the Job Training Partnership Act.

The following additional criteria pertain to this audit:

        Federal Acquisition Regulation
        Policy and Requirements Handbook
        Program Assessment Guide
        Job Corps Procurement Compendium




22                                           U.S. Department of Labor -–Office of Inspector General
                                                                  Report Number: 04-07-002-01-370
                                                         Job Corps Regional Director’s Authority as
                                                              Contracting Officer Raises Concerns

                                                                                   APPENDIX C
ACRONYMS AND ABBREVIATIONS
ABC        American Business Corporation

AROJC      Atlanta Regional Office of Job Corps

CO         Contracting Officer

CTS        Career Transition Services

DRD        Deputy Regional Director

ETR        Education and Training Resources

FAR        Federal Acquisition Regulation

JCC        Job Corps Center

MTC        Management and Training Corporation

PAG        Program Assessment Guide

RD         Regional Director




U.S. Department of Labor – Office of Inspector General                                         23
Report Number: 04-07-002-01-370
Job Corps Regional Director’s Authority as
Contracting Officer Raises Concerns




                      PAGE HAS BEEN INTENTIONALLY LEFT BLANK




24                                           U.S. Department of Labor -–Office of Inspector General
                                                                  Report Number: 04-07-002-01-370
                                                         Job Corps Regional Director’s Authority as
                                                              Contracting Officer Raises Concerns

                                                                                   APPENDIX D

AGENCY RESPONSE TO DRAFT REPORT




U.S. Department of Labor – Office of Inspector General                                         25
Report Number: 04-07-002-01-370
